<html>
<title> - NOMINATION OF ROBERT W. COBB TO BE INSPECTOR GENERAL OF THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION</title>
<body><pre>[Senate Hearing 107-1072]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1072

                  NOMINATION OF ROBERT W. COBB TO BE 
                   INSPECTOR GENERAL OF THE NATIONAL 
                  AERONAUTICS AND SPACE ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
93-992                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 13, 2002...................................     1
Statement of Senator Allen.......................................    15
Statement of Senator Wyden.......................................     1

                               Witnesses

Cobb, Robert W., nominee for the position of Inspector General of 
  the National Aeronautics and Space Administration..............     3
    Prepared Statement...........................................     4
    Biographical Information.....................................     6

                                Appendix

McCain, Hon. John, U.S. Senator from Arizona, prepared statement.    19

 
                  NOMINATION OF ROBERT W. COBB TO BE 
                   INSPECTOR GENERAL OF THE NATIONAL 
                  AERONAUTICS AND SPACE ADMINISTRATION

                              ----------                              


                       WEDNESDAY, MARCH 13, 2002

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The Committee on Commerce, Science, and 
Transportation will come to order. This afternoon, the 
Committee was to hear two nominations, that of Major General 
Charles Bolden to be the Deputy Administrator and Mr. Robert 
Cobb to be the Inspector General of NASA. Instead, we will hear 
Mr. Cobb's nomination, as General Bolden has withdrawn his name 
from nomination in order to continue his military service at 
this time of war. General Bolden is the Commanding General of 
the Third Marine Aircraft Wing in San Diego, California.
    Before we begin hearing from Mr. Cobb, I will say that I 
believe that General Bolden would be an excellent nominee for 
NASA's Deputy Administrator. In 1980, he was selected for an 
astronaut candidate for NASA, and qualified as a Space Shuttle 
pilot astronaut in 1981. General Bolden went on to fly four 
missions in space. The first was aboard the Space Shuttle 
Columbia in 1986. Another member of that crew is a 
distinguished member of our Full Committee and a member of the 
Subcommittee I chair, Senator Bill Nelson.
    He also knew the job of Deputy Administrator, having served 
as the Assistant Deputy Administrator from 1992 to 1994. I am 
certain that his service to NASA would have been as valuable as 
it continues to be in the United States Marine Corps.
    Let me also State that I think it is very understandable 
that the President of the United States wants to have all hands 
on deck in this fight against terrorism, and he has my support, 
as he has the support of all Americans. At the same time, I 
think it is critical that NASA also have all hands on deck, and 
I am very hopeful that the administration will move quickly to 
fill the position of nominee for NASA's Deputy Administrator. 
There are a number of important changes underway now at the 
agency. Mr. O'Keefe, for example, has looked to a number of 
changes in technology policy that I think warrant thoughtful 
analysis, and we have learned just in the last few days that 
NASA has not yet ended its financial woes. Its independent 
auditor, PriceWaterhouseCoopers, has declined to issue an 
opinion on the agency's fiscal year 2001 financial statement, 
essentially declaring that NASA is not an agency that you can 
audit.
    Now, like millions of Americans, I share the hopes and 
dreams of the agency for great gains and achievements in space, 
but there are not going to be a lot of dreams, there are not 
going to be a lot of gains if, in fact, you have got an agency 
that auditors claim is in such financial chaos that you cannot 
audit it, so we have got a problem here that of course is not 
the first time we have heard about this.
    The General Accounting Office has cited before NASA's 
inability to provide documentation it needed to independently 
verify obligations and expenses, so it is critical that the 
administration move to fill the slot that Mr. Bolden would have 
assumed had he been confirmed. We are going to work with them, 
as we always do in this Committee, in a bipartisan way, but 
with NASA charged to undertake civilian research and 
development involving flight activity and aeronautics and space 
at a critical time with a budget of nearly $15 billion, it is 
important that in addition to having all hands on deck in this 
fight against terrorism, that we have all hands on deck with 
respect to the programs that are under NASA's jurisdiction.
    To further underscore the importance of this work, I would 
like to announce today that after we have had a chance to 
consult with Senator Allen and Senator McCain on the Minority 
side and, of course, Chairman Hollings, who has been so 
supportive of these programs and this work, over the next 2 
months we are going to have an oversight hearing to examine 
some of the activities that are taking place at the agency.
    I think this is a timely run-up to the reauthorization of 
the program, which expires later this year, so there are 
considerable questions that warrant the scrutiny of both the 
Full Committee and the Subcommittee I chair, and we are going 
to examine them.
    Of course these financial flaws in particular stem from 
NASA's lack of a modern, integrated financial management 
system. While NASA officials agree that there is a problem and 
have promised the new financial system will provide the 
necessary documentation, we do have to note that this is NASA's 
third attempt since 1988 to integrate its financial systems.
    The first two attempts were abandoned after 12 years, and 
spending a reported $180 million, and Mr. Cobb, whose 
nomination we will consider today, is going to have an 
important role in straightening out those systems once and for 
all, and it is vital that the agency does so. The agency's 
financial problems threaten its future, threaten the great 
tradition of research and development that produces 
technologies that will drive our economy.
    I look forward to working with Mr. Cobb and with 
Administrator O'Keefe on many of the issues facing the agency. 
During Mr. O'Keefe's confirmation hearing before the Committee, 
I challenged him to return NASA to a science and research-
driven agenda so that our dedicated scientists and engineers 
can find the breakthrough technologies that have been NASA at 
its best. To follow through on that vision, it will be critical 
that the Inspector General be a watch-dog, ensuring that the 
agency's financial problems do not recur under Administrator 
O'Keefe's watch.
    Mr. Robert Cobb currently serves as ethics counsel to the 
President. From 1992 to 2001, he served as Associate General 
Counsel in the U.S. Office of Government Ethics. While he is 
not an accountant by training, we are hopeful that his skills, 
combined with those of the excellent NASA Inspector General 
staff, will allow him to be a dogged advocate, a persistent 
advocate for fiscal responsibility at the agency.
    We look forward to hearing from Mr. Cobb today. We 
anticipate that there will be a timely confirmation, and before 
we hear from Mr. Moose Cobb this afternoon, we do want to 
welcome a sort of phalanx of Cobb supporters here, Cobb family 
members, Mr. Cobb's wife Jane, sons Robert and Johnny, brother 
Calvin, sister-in-law Charlotte Young, and nephew Christian.
    Will all of you stand? Welcome to all of you. It is a proud 
day for your family, and we are very pleased that all of you 
are here with us this afternoon.
    Let us go right to your testimony, and we will make any 
prepared remarks part of the hearing record in their entirety, 
and you can proceed as you see fit.

         STATEMENT OF ROBERT W. COBB, NOMINEE FOR THE 
         POSITION OF INSPECTOR GENERAL OF THE NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Cobb. Thank you, Mr. Chairman. I have a summary of 
those remarks. It is an honor to appear before this Committee 
as the President's nominee to be the Inspector General of the 
National Aeronautics and Space Administration. The mission of 
the NASA Office of Inspector General is clear, to root out 
fraud, waste, and abuse, and promote economy and efficiency in 
the administration of the agency's programs and operations.
    The role involves law enforcement and oversight. The 
oversight role to an extent parallels and facilitates Congress' 
oversight responsibilities. In order to effectively carry out 
the IG mission, a positive working relationship with Congress 
is required. As IG, I would ensure that the OIG meets its 
obligations to Congress under the Inspector General Act of 
1978, and I would work with and be responsive to Members of 
Congress and their staff.
    I would also seek to give fair, reasonable, and independent 
assessments of agency programs in accordance with the IG act. I 
am hopeful that NASA management would view IG recommendations 
as being beneficial to achieving agency objectives.
    If confirmed as the NASA IG, I will have certain immediate 
objectives. I believe safety, mission assurance, and vigilant 
risk management is critical to maintaining the public's trust 
in NASA. I would seek to utilize the established tools of the 
OIG to ensure that NASA's programs, directed at risk 
management, security, and emergency preparedness are effective 
in meeting their stated objectives.
    Also, I believe that the American people have the right to 
be confident that NASA's financial management is sound. I have 
discussed the issue of financial management with the 
Administrator, and he has committed to working with the 
Inspector General in ensuring sufficient management attention 
is given to NASA's financial systems.
    While existing financial systems need to be addressed 
generally, there are also particular programs that will require 
significant IG attention. For example, I would focus some IG 
resources on the cost growth of the International Space 
Station, and management's plans for addressing that problem. 
Finally, I would seek to have the NASA OIG reflect the 
efficiency and integrity that it will be promoting agencywide.
    Like many government agencies, NASA is changing to meet new 
priorities. The NASA IG will need to be a force in ensuring 
that the change at NASA is handled economically, efficiently, 
and in a manner that is consistent with applicable law.
    Thank you for your time and consideration. Public service 
is a public trust, and I would be honored to uphold the public 
trust as Inspector General at NASA. I now am prepared to answer 
any questions you may have.
    [The prepared statement and biographical information of Mr. 
Cobb follow:]

   Prepared Statement of Robert W. Cobb, Nominee for the Position of 
 Inspector General of the National Aeronautics and Space Administration

    Mr. Chairman and Members of the Committee: It is an honor for me to 
appear before this Committee as the President's nominee to be the 
Inspector General of the National Aeronautics and Space Administration.
    I am proud to say that I am a member of a family that has for 
generations reflected a dedication to public service, both civilian and 
military. My children's names reflect some of this history: Robert 
Watson Cobb, age 10, was named after me and my grandfather, Robert 
Watson, who was Commissioner of Patents during the Eisenhower 
administration. My son Johnson Hagood Cobb, age 8, was named after his 
great-, great-great-, and great-great-great- grandfathers, all named 
Johnson Hagood, all of whom graduated from the United States Military 
Academy. One served as a full-colonel for four years under General 
Patton in World War II, and the others served as generals, and one 
subsequently served as the Governor of South Carolina. My son Calvin 
Hayes Cobb, age 3, was named after my father, Calvin Hayes Cobb, Jr. 
who, along with his brother, Warrington Cobb, and his father, also 
Calvin Hayes Cobb, graduated from the United States Naval Academy. My 
grandfather's grandfather, Calvin Hayes, served in the 27th Maine 
Infantry and the 32nd Regiment Maine Infantry in the Civil War. Both my 
father and his father served in World War II, my grandfather as an 
admiral. I note my children's other grandfather, Dolphin D. Overton 
III, attended the United States Military Academy at West Point, flew 
149 missions in Korea, and was South Carolina's first jet ace. His son 
was a Navy pilot. My great-grandfather on my mother's side, Asbury 
Churchwell Latimer, served as United States Senator from South 
Carolina, early last century. Lastly, my wife, Jane Overton Cobb, has 
been a Federal employee for 13 years. Like others in my family, I have 
been drawn to public service and am dedicated to serving our country.
    It has been a great honor for me to serve as Associate Counsel to 
the President with responsibility, under the supervision of the Counsel 
to the President, over the ethics portfolio for the White House Office. 
For any new White House, the ethics program has to be created from 
scratch. There are hundreds of new employees, many of whom have never 
worked in the executive branch, who have to be trained on applicable 
ethics requirements. Since part of the training emphasizes that 
employees ask before they act, there are thousands of questions that 
are asked and answered. Financial disclosure reports for those who are 
public filers must be collected and reviewed. All conflict of interest 
issues must be resolved. A system for confidential financial disclosure 
has to be put in place. Policies on the handling of gifts and myriad 
other issues are established. A system for reviewing financial 
conflicts of candidates for Presidential appointments requiring Senate 
confirmation has to be set up in order to process the hundreds of 
candidates who must be cleared for nomination by the Office of the 
Counsel to the President. To assist me in accomplishing the task at 
hand, I recruited career executive branch employees, including thirteen 
attorneys and two ethics specialists, to help with the workload. I take 
great pride in having worked for the President in this capacity.
    For nine years at the Office of Government Ethics, I worked on the 
application of conflicts of interest laws and conduct regulations to 
executive branch employees. Much of this work was directed at 
preventing corruption. But, I also gained substantial experience in 
matters relating to the criminal and administrative handling of conduct 
cases. I advised and assisted Inspectors General and other Federal law 
enforcement authorities in a number of criminal and administrative 
investigations of conflicts of interest, misstatements or failure to 
disclose information on financial disclosure reports, and other conduct 
violations. Several of these cases involved agency heads (or former 
agency heads) and several others involved other senior Government 
officials. These cases were resolved through criminal convictions, 
civil settlements (of allegations that if proven would constitute a 
criminal misdemeanor), resignation (in one case after a critical 
Inspector General report), and impositions by the Department of Justice 
of civil penalties and otherwise. I also assisted in the evaluation of 
misconduct allegations against Inspectors General in connection with 
activities of the Integrity Committee of the President's Council on 
Integrity and Efficiency.
    In fulfilling my role as a Government ethics attorney, both at the 
Office of Government Ethics and at the White House, I worked on a range 
of issues. The contexts and factual predicates for my work have 
provided me with on-the-job training on Government operations, 
including organization of agencies, appropriations law, public-private 
partnerships, personnel issues, operations of Offices of Inspectors 
General, criminal and administrative proceedings, and myriad other 
organizational and operational concerns. I have also been tapped, both 
at the White House and the Office of Government Ethics, to be the 
contract attorney on agency contracts or to advise the agency in 
connection with its procurement activities.
    Prior to Government service, I was in private practice for five and 
one-half years with the law firm Ober, Kaler, Grimes & Shriver. My 
practice involved representation of clients in a broad range of 
commercial matters and litigation.
    I now have the prospect of a new challenge, to serve the American 
people as Inspector General of NASA. The mission of the NASA IG is 
clear: to root out fraud, waste and abuse, and to promote economy and 
efficiency in the administration of the agency's programs and 
operations. The role involves law enforcement and oversight. The 
oversight role, to an extent, parallels and facilitates Congress's 
oversight responsibilities. In order to effectively carry out the IG 
mission, a positive working relationship with Congress is required. As 
IG, I would ensure that the OIG meets its IG Act obligations to 
Congress, and I would work with and be responsive to Members of 
Congress and their staff. I would also seek to give fair, reasonable, 
and independent assessments of agency programs in accordance with the 
IG Act. I am hopeful that NASA management would view IG recommendations 
as being beneficial to achieving agency objectives.
    If confirmed as the NASA IG, I will have certain immediate 
objectives. I believe safety, mission assurance, and vigilant risk 
management is critical to maintaining the public's trust in NASA. I 
would seek to utilize the established tools of the OIG to ensure that 
NASA's programs directed at risk management, security, and emergency 
preparedness are effective in meeting their stated objectives. Also, I 
believe that the American people have a right to be confident that 
NASA's financial management is sound. I have discussed the issue of 
financial management with the Administrator, and he is committed to 
working with the Inspector General in ensuring sufficient management 
attention is given to NASA's financial systems. While existing 
financial systems need to be addressed generally, there are also 
particular programs that will require significant IG attention. For 
example, I would focus OIG resources on the cost growth of the 
International Space Station and management's plans for addressing that 
problem. Finally, I would seek to have the NASA OIG reflect the 
efficiency and integrity that it will be promoting agency wide.
    Like many Government agencies, NASA is changing to meet new 
priorities. The NASA IG will need to be a force in ensuring that change 
at NASA is handled economically, efficiently and in a manner that is 
consistent with applicable law.
    Thank you for your time and consideration. Public service is a 
public trust, and I would be honored to uphold the public trust as 
Inspector General at NASA. I am prepared to answer any questions you 
may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Robert Watson Cobb (Moose).
    2. Position to which nominated: Inspector General, National 
Aeronautics and Space Administration (NASA).
    3. Date of nomination: 2/26/02.
    4. Address: (Information not released to the public). Office: Room 
157, Eisenhower Executive Office Bldg. Washington, DC 20502.
    5. Date and place of birth: 4/29/60, Washington, DC.
    6. Marital status: Married; Jane Overton Cobb.
    7. Names and ages of children: Robert Watson Cobb, 10; Johnson 
Hagood Cobb, 8; Calvin Hayes Cobb, 3.
    8. Education: George Washington University National Law Center, 
J.D.,1986; Vanderbilt University, B.A., cum laude, 1982; Landon School, 
1968-1978.
    9. Employment record: (1) Associate Counsel to the President, 
Ethics Counsel, EEOB, Washington, DC (1/28/01-Present); (2) Associate 
General Counsel, U.S. Office of Government Ethics, 1201 New York Ave., 
Washington, DC (2/19/92-1/27/01); (3) Ober, Kaler, Grimes & Shriver, 
Washington, DC (9/86-2/92); (4) Work experience while at George 
Washington: Intern for The Honorable Stanley Harris, United States 
District Court (Fall 1985); Law clerk, Peterson, Young, Self & Asselin, 
Atlanta, GA (Summer 1985); Intern, Division of Enforcement, Securities 
and Exchange Commission (Spring 1985); Research Assistant, Joel 
Seligman, Securities Law Professor (1984-1985); Law clerk, Beckett, 
Cromwell & Myers, P.A., Bethesda, MD (Summer 1984); (5) Tennis 
Professional/English Teacher, Taipei, Taiwan (Spring 1983); (6) Benson 
Custom Masonry, Dickerson, MD (mason's assistant)(Fall 1982); (7) 
Tennis Professional, Gibson Island Club, Gibson Island, MD (Summer 
1982).
    10. Government experience: N/A.
    11. Business relationships: Cobb Family Partnership (family 
vacation property); As an associate attorney at Ober, Kaler, Grimes & 
Shriver, (1986-1992), I was involved in representing a number of 
corporations, companies, partnerships and other institutions and 
entities in litigation, business formation, contracts and other legal 
services. I do not have a list or record of the entities that I was 
involved in representing.
    12. Memberships: Barristers of Washington University Club of 
Washington Chevy Chase Club.
    13. Political affiliations and activities: (a) N/A. (b) N/A. (c) N/
A.
    14. Honors and awards: Seven Sustained Superior Performance Awards 
(1993-1999) Quality Step Increase, Spot Cash Award (1999); Special 
Award ``Stamps of Law'' presented by Mary Elcano, General Counsel, U.S. 
Postal Service, for services to that agency in 1997-1998 (1998).
    15. Published writings: I authored published opinions of the Office 
of Government Ethics. These opinions would typically have been issued 
by the Director of the Office and would have reflected no attribution 
to me.
    16. Speeches: I have no published speeches. I have given dozens of 
presentations in my official capacity concerning standards of conduct, 
conflicts of interest, the Federal ethics program, and the system in 
the United States for handling corruption of public officials.
    17. Selection: (a) I believe I was chosen because the President has 
developed confidence in me as a person of integrity and independence in 
handling the ethics portfolio in the White House, under the supervision 
of the Counsel to the President, and based on my years of service as a 
career attorney at the Office of Government Ethics. (b) I believe my 
work as a Government attorney over the past 10 years and my other 
experience qualifies me for the appointment to the position of 
Inspector General at NASA. In particular, my work has been focused on 
the implementation of the fundamental tenet of Government service--that 
public service is a public trust, which all employees are required to 
uphold.
    As a Government ethics attorney, I have a comprehensive knowledge 
of the criminal laws and rules governing employee conduct and extensive 
experience in ensuring employee compliance with conduct requirements.
    In fulfilling my duties as a Government ethics attorney, I have 
worked on a range of issues. The contexts and factual predicates for my 
work have provided me with on-the-job training on Government 
operations, including organization of agencies, appropriations law, 
public-private partnerships, Government contracts, personnel 
organization, operations of Offices of Inspectors General, criminal and 
administrative proceedings, and myriad other organizational and 
operational concerns.
    As an expert in conflicts of interest between employees and non-
Governmental entities, I have provided substantial advice on approaches 
to relations between the Government and the non-Governmental entities. 
I, therefore, have experience in the establishment of organizational 
structures to address Government needs. This experience has been drawn 
upon in my ethics role in the White House Office in terms of assuring 
Administration compliance with applicable principles of appropriations 
law and conflicts of interest requirements.
    In managing the White House ethics program, I have been responsible 
for the creation and administration of the White House program for 
clearance of Presidential appointees' conflict of interest issues and 
financial disclosure reports. In addition, I have established the 
procedures and mechanisms associated with the filing and review of 
public and confidential financial disclosure statements by White House 
Office employees, training of employees on ethics matters, and the 
provision of ethics advice in the White House.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes. (I will continue participation in the 
Cobb Family Partnership, an ownership vehicle for my family (my parents 
and their progeny) to own a piece of vacation property. I will also 
continue as co-trustee of the Overton Family Trust, a trust established 
by my father-in-law. No compensation or income is involved in either 
the Partnership or the Trust.)
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes. I would 
expect to serve into the next Presidential term in accordance with the 
Inspector General Act.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. N/A.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. I was informed that 
holdings of General Electric, Microsoft and Sony Corporation could 
present a conflict of interest, so I sold all holdings of those 
companies.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None, other than 
in my official capacity as an ethics attorney commenting on legislation 
affecting ethics and ethics-related laws.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) I will 
take any and all steps to avoid conflicts of interest that are 
identified either by myself or by ethics officials at NASA.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Section 
4(a)(5) of the Inspector General Act of 1978, Public Law 95-452, as 
amended, 5 USC Appendix, (the IG Act), requires that the IG keep the 
Congress fully and currently informed by means of the semiannual report 
and otherwise, concerning problems and recommendations related to the 
operations and functions of the Agency. This is a mandate to be taken 
seriously and will be solemnly honored. I will do my utmost to ensure 
that NASA is as responsive as possible to deadlines set by 
congressional committees.
    I am committed to a positive working relationship with 
congressional committees and would work hard to satisfy congressional 
informational requests.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Section 7(c) of the IG Act forbids 
reprisals against Agency whistleblowers. In addition, there are other 
statutes that provide varying degrees of protection for whistleblowers 
in various contexts. Section 2302(b) of title 5 of the United States 
Code makes retaliation against whistleblowing a prohibited personnel 
practice. The False Claims Act, 31 USC 3730(h) grants employees a 
private right of action if they are reprised against in the context of 
a false claims investigation. The Federal Acquisition Regulations (FAR) 
subpart 3.9 also has provisions for the protection of contractor 
employee whistleblowers. All of these provisions of law are utilized to 
protect witnesses from reprisal for exercising their First Amendment 
rights and their right to petition the Congress.
    As an IG, I would be intolerant of any prohibited personnel 
practices, including retaliation against whistleblowers. Where 
warranted, referrals to the Office of Special Counsel will be made. (In 
such cases, the OIG will dedicate such resources as are necessary to 
assist the OSC in its handling of the referral.) In addition to the 
public policy and legal issues associated with protecting 
whistleblowers, as a practical matter it is imperative that the IG do 
all it can to assist whistleblowers. This keeps the channels of 
communication open to the IG organizations. If an IG is perceived as 
not willing to protect whistleblowers, the free-flow of information 
could dry up, making an IG less effective.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes. 
(Access to information about active criminal investigations and grand 
jury proceedings may be limited, as required by law.)
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. 
Under section 4(a)(2) of the IG Act, the IG is required to review 
regulations of the agency. Inconsistency with existing law would be 
brought to the attention of the drafter of the regulation. As IG, I 
would ensure that the appropriate OIG staff review all proposed 
regulations. If the Agency decides to go forward with a regulation 
despite a significant nonconcurrence from the OIG, I would ensure that 
the Administrator is notified before the regulation is finalized.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. The National Aeronautics 
and Space Administration (NASA) is charged by the National Space Act of 
1958, as amended, with exercising the management of the nation's 
civilian space programs and activities. NASA's objectives include the 
exploration and use of outer space for the benefit of all humankind and 
the dissemination of knowledge and information gained from exploration 
activities. Its activities are generally focused in program and project 
activities conducted by civil servants and contractor support. In 
addition to general administrative functions, NASA's activities are 
organized within five major areas of activity, or ``Enterprises:'' 
Space Science, Earth Science, Biological and Physical Sciences, 
Aeronautics Technology, and the Human Exploration and Development of 
Space. Programs currently underway within NASA include such major 
programs as the Space Launch Initiative, the Space Shuttle Program, and 
the International Space Station. The Agency currently faces significant 
challenges in managing cost and accountability within its major 
programs and implementing reforms and initiatives of the President's 
Management Agenda.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated? I 
believe my work as a Government ethics attorney over the past 10 years 
and my other experience qualifies me for the appointment to the 
position of Inspector General at NASA. In particular, my work has been 
focused on the implementation of the fundamental tenet of Government 
service--that public service is a public trust, which all employees are 
required to uphold. As a Government ethics attorney, I have a 
comprehensive knowledge of the criminal laws and rules governing 
employee conduct and extensive experience in ensuring employee 
compliance with conduct requirements. In fulfilling my duties as a 
Government ethics attorney, I have worked on a range of issues. The 
contexts and factual predicates for my work has provided me with on-
the-job training on Government operations including organization of 
agencies, appropriations law, public-private partnerships, Government 
contracts, personnel organization, operations of Offices of Inspectors 
General, criminal and administrative proceedings, and myriad other 
organizational and operational concerns. Combined with this experience 
is my commitment, reflected in my work, to having Government operate in 
a manner that is legal and faithful to the purposes for which it is 
organized.
    2. Why do you wish to serve in the position for which you have been 
nominated? Public Service is an important part of my life and gives me 
a sense of fulfillment that I do not believe is available in the 
private sector. That fulfillment is attributable to a desire to make a 
difference; to try to improve upon the systems upon which the American 
people rely in having their needs, and in some instances, dreams, 
fulfilled by their Government.
    3. What goals have you established for your first 2 years in this 
position, if confirmed? During my tenure as IG, I aspire to do the 
following: to perform a functional and performance review of the OIG to 
ensure that it is fulfilling all of the legal requirements of the IG 
Act and related laws; to review OIG program activities to ensure that 
OIG resources are being most efficiently utilized; to ensure that the 
OIG is carrying out its mission to promote economy and efficiency in, 
and to detect fraud, waste and abuse in, NASA operations; to ensure 
that NASA's financial accounting systems are reliable and are 
accessible for independent and positive evaluation of the agency's 
financial condition and programs; to ensure that NASA's security 
measures are adequate to counter terrorist threats and that the 
agency's emergency preparedness programs are effective; to assist the 
Administrator in ensuring the efficient management of NASA, and to 
provide confidence to the President, Congress and the American taxpayer 
that NASA operations and its management and administration are 
generally efficient, and that inefficiencies are promptly identified 
and remedied.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? An ideal IG would be an expert in 
accounting, auditing, financial analysis, law, management analysis, 
public administration, and investigations, plus have the personal 
skills to be able to effectively carry out the mandate of the office. 
While I have been exposed to many of these disciplines and believe 
myself to be an effective manager, I will rely upon the expertise of 
the OIG staff, the President's Council on Integrity and Efficiency, and 
take advantage of any other available resources to maximize my ability 
to carry out the duties of the NASA IG.
    5. Who are the stakeholders in the work of this agency? The primary 
stakeholders of NASA are the American people and those who work on 
their behalf, including the Administrator and the employees of the 
agency, the President, and the Congress. Other stakeholders include the 
aerospace research and development community, the aviation industry, 
educational institutions, and international partners.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 10. Through 
the framework of the IG Act and the administration of the office of the 
OIG, the IG must be directly responsive to the stakeholders and be 
accountable for the efficient management of the agency. By making 
recommendations aimed at the effective use of agency resources and by 
rooting out fraud, waste and abuse, the stakeholders will be served.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? The IG is 
responsible for auditing the Agency's financial statements in 
accordance with the Chief Financial Officers Act, as amended. This can 
be accomplished by the IG organization or by an external audit 
organization determined by the IG. The IG must ensure that the quality 
of the audit work performed meets generally accepted government 
accounting standards and, where an outside auditor is used, contract 
requirements as well. Part of this audit includes a review to 
understand the internal controls and to assess the level of control 
risk in the assertions embodied in the financial statements. The IG 
must work with the Administrator to ensure that NASA's financial 
accounting systems are reliable and are accessible for independent and 
positive evaluation of the agency's financial condition and programs. 
Apart from the financial statement audit, auditors generally strive to 
perform an assessment of internal controls to understand the system and 
its risks and to assess compliance with laws and regulations. Where 
problems are identified, appropriate solutions and remedial steps will 
be employed. (b) What experience do you have in managing a large 
organization? In managing the White House ethics program, I have been 
responsible for the creation and administration of the White House 
program for clearance of Presidential appointees' conflict of interest 
issues and financial disclosure reports. In addition, I have 
established the procedures and mechanisms associated with the filing 
and review of public and confidential financial disclosure statements 
by White House Office employees, training of employees on ethics 
matters, and the provision of ethics advice in the White House. The 
role has also involved the establishment of guidance on ethics issues 
applicable to all executive branch employees.
    The White House ethics program touches every White House Office 
employee and imposes obligations on every employee to be responsive to 
the requirements of the program. The responsibility for managing the 
program involves monitoring and ensuring White House Office employees' 
compliance with program requirements. Managing this program requires 
substantial interpersonal and communication skills.
    Also as an expert on conflicts of interest, I have provided 
substantial advice on approaches to relations between the Govermnent 
and non-Governmental entities. I, therefore, have experience in the 
establishment of organizational structures to address Government needs. 
This experience has been drawn upon in my ethics role in the White 
House Office in terms of assuring Administration compliance with 
applicable principles of appropriations law and conflicts of interest 
requirements.
    In connection with the responsibilities associated with, the 
clearance of Presidential appointments and the White House Office 
ethics program, I have recruited and managed 15 career executive branch 
employees (13 attorneys and 2 ethics program specialists) detailed to 
the White House Office.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. The identification of performance goals through 
strategic planning and otherwise ensures that organizations focus on 
the job that they are expected to perform and the framework and 
resources for achieving those objectives. (b) What steps should 
Congress consider taking when an agency fails to achieve its 
performance goals? Should these steps include the elimination, 
privatization, downsizing or consolidation of departments and/or 
programs? Congress should consider whether the performance goals match 
with legal and Congressional expectations of the organization involved. 
Where an entity does not meet its objectives, Congress should, where 
appropriate, evaluate the reason for the failure in fulfillment of its 
general oversight responsibilities. Failure to achieve stated 
objectives could result from management problems, inadequate resources, 
unanticipated events, changes in priorities and any number of other 
causes. Congress should take all steps in fulfillment of its 
Constitutional role necessary to secure what, in its judgment, is in 
the best interests of the American people. (c) What performance goals 
do you believe should be applicable to your personal performance, if 
confirmed? In my view, a basic outline of the performance goals of an 
Inspector General is contained in the IG Act. To the extent the 
requirements of the Act are not being met, an Inspector General is 
accountable. An IG is also accountable to see that specific problems 
that have been identified are addressed. Included in this is ensuring 
that IG recommendations are incorporated into agency programs. A 
measure of the success of IG recommendations would be the degree to 
which efficiency and economy result from the recommendations in the 
administration of an agency's programs.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? Employees are the 
primary resource a manager has in accomplishing a mission. Employees 
must be motivated, they must be rewarded, they must be guided, and they 
must be imbued with a sense of personal responsibility for the mission. 
In my view, this is best accomplished by challenging employees by 
having them execute responsibilities that extend to the boundaries of 
their abilities. I believe that efficient accomplishment of this 
mission requires that employees be told what is expected of them and 
that they be allowed to execute their responsibilities in a way that 
minimizes intervention by management. At each step of the management 
chain, each employee is expected to fulfill the clearly defined 
responsibilities of his or her portfolio, with minimal interference, 
but with guidance and mentoring when necessary and with appropriate 
consequences when agreed upon expectations are not met. In my view, 
employees are challenged and gain fulfillment from taking personal 
responsibility and executing a particular role. Managers are 
responsible for challenging subordinates with assignments, but also to 
ensure that assignments are appropriately made.
    I believe in a teamwork approach that involves developing a sense 
of mission and commitment to common goals and objectives. For teams to 
work effectively, the objectives of the team need to be clearly 
defined, and each team member's responsibilities in carrying out the 
team mission also need to be clearly defined.
    Lastly, I believe that the best form of leadership is leadership by 
example. Managers should set high standards for themselves and hope and 
expect that employees will follow the example set.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. I have had interaction with a number 
of Congressional committees in connection with the appointment and 
clearance process as an attorney at the Office of Government Ethics and 
as Ethics Counsel in the White House. The vast majority of this contact 
has been aimed at ensuring that Presidential appointees satisfy legal 
conflict of interest requirements and any additional conduct or 
conflict requirements that may be deemed appropriate by a particular 
confirmation Committee.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. N/A.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. In 
addition to fulfilling the requirements of the IG Act, I would expect 
to work directly with the staff of this Committee to ensure that the 
Committee's concerns are addressed by the OIG and the agency. 
Similarly, I would expect to work with the staff of other congressional 
committees with oversight and jurisdictional interests over my office 
and the agency. I anticipate that through a cooperative working 
relationship with the Committees and the Administrator, the American 
people, the ultimate stakeholder in NASA's operation, will be best 
served.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
State your personal views. I am not reluctant to State my opinions and 
personal views when I have them, but my views on how best to serve the 
stakeholders through legislative action are undeveloped at this time. 
Once in office, I look forward to assisting congressional committees in 
identifying particular legislative solutions. I anticipate that safety 
and security, managing cost growth in particular programs and overall 
financial management at NASA will be areas of particular concern.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please State why. If yes, please State 
what steps you intend to take and a timeframe for their implementation. 
Yes. For the OIG, discretionary spending is limited to a very small 
portion of the OIG budget. I pledge to ensure that discretionary 
spending is closely monitored and based on the stated and justifiable 
needs of the OIG's office. With respect to the operations of NASA as a 
whole, I believe that use of discretionary spending is an appropriate 
area for OIG monitoring, and will take steps aimed at ensuring that 
appropriate financial accounting is employed with respect to. such 
spending and that such spending is efficient and effective toward 
meeting the objectives of the agency.

    Senator Wyden. Mr. Cobb, thank you, and I do have a number 
of questions, so here we are. A few weeks ago, the beginning of 
March, PriceWaterhouseCoopers puts out their independent audit 
of the agency for fiscal year 2001, and basically their 
conclusion is that you cannot audit the place, that things are 
so out of control with respect to a lack of financial 
documentation for some of the agency's transactions that they 
basically are saying it is not auditable. It cannot be done. 
They cannot really figure out the way this place works 
financially. What are your reactions to what strikes me as a 
pretty staggering finding?
    Mr. Cobb. When I read the PriceWaterhouse letter, my 
immediate reaction was, if you go through it paragraph by 
paragraph, that one's only conclusion would be that, in terms 
of financial management, that NASA's grade would be a zero if 
you were looking at that letter alone.
    I understand that PriceWaterhouse had the option to go with 
an adverse opinion, which they did not elect to do, so it could 
be worse than a zero, but I agree with you that that letter 
stands as an embarrassment to NASA in terms of its financial 
management, and it is something that warrants all due attention 
from the agency, and including the Inspector General's Office, 
to set the ship aright.
    Senator Wyden. Given the fact that you are getting started, 
and this is just to get a sense of how you are going to 
proceed, how are you going to go drain the swamp? You have 
basically just given them a grade of possibly less than zero. 
You have got to get some time there to get your feet settled, 
and I understand that. You are a good man. We are going to 
support you and try to move your confirmation in a timely way. 
How are you going to get after it the day you get confirmed, 
given that this is an embarrassment, to use your words?
    Mr. Cobb. Well, NASA OIG has a strong audit team to start 
with, and they also have the responsibility for the contract, 
the PriceWaterhouse contract, and they have the contracting 
officer technical representative on their staff that has been 
handling the day-to-day workings of the contract.
    What I would intend to do is get an OIG senior team 
assembled to keep constant and vigilant attention as to the 
status of the PriceWaterhouse audit program, and in connection, 
I think there is already ongoing interaction between the OIG, 
the CFO, and PriceWaterhouse, but to maintain a focus on that 
at the very highest level of the Office of Inspector General so 
we can monitor it literally on a constant basis and take any 
necessary actions to communicate with the administrator any 
concerns that we have, and to make sure that the agency is 
taking our recommendations seriously.
    Senator Wyden. Now, the Act, the Inspector General Act 
spells out essentially the duties of the Inspector General, and 
obviously there are legitimate questions in terms of allocating 
your time, but clearly part of those duties include conducting 
and supervising independent and objective audits and 
investigations relating to agency programs and operations.
    Here again, extra points for candor. You have already said 
to me and elsewhere you are not an accountant, but clearly 
there is going to be a need for a tireless fiscal watch-dog to 
get the agency in financial shape and ensure that it stays in 
shape. Now, you talk about a team approach in your previous 
answer to me. Now, is that going to be the sole focus of what 
you do to try to get the place in financial shape, or are there 
other steps that you think are warranted right now?
    Mr. Cobb. Well, again, it is difficult for me to figure out 
exactly what the best approach is, so the team is really to get 
together to make sure that the OIG management is properly 
focused on this as a significant and really the highest 
priority in terms of what the Office of the Inspector General 
will be involved in, in terms of there already is an existing 
OIG framework for monitoring the contract and monitoring it in 
conjunction with the management of NASA and PriceWaterhouse.
    I certainly would be open to using any resources that were 
available, and there are a number of different ways of getting 
at problems at an agency like NASA. I know GAO has been active 
especially in the International Space Station. They have 
independent, or they have management mechanisms built in at 
NASA to look at various issues, so I am going to use all the 
resources that are available to me, and to the extent I feel I 
am coming up short in terms of ideas, I am sure that I will 
work closely with the Committee and the President's Council on 
Integrity and Efficiency to make sure that all of the tools 
that are available to me would be utilized in connection with 
the financial management issues.
    Senator Wyden. Let us talk for a minute about the 
integrated financial management concept, how this is NASA's 
third attempt since 1988 to put this together. The first two 
attempts, 12 years time, reported $180 million, the agency 
expects to complete the current system effort by 2007 at a cost 
of $645 million.
    Now, this whole exercise looks like the longest-running 
battle since the Trojan War. I mean, it just looks like it is 
going to go on and on and on. Can you tell us what you would 
do, as Inspector General, to help end this marathon exercise 
and actually achieve a useful, integrated financial system?
    Mr. Cobb. Well, again, I have very limited understanding at 
this point in time of exactly what the cause is of the failure 
of the two prior attempts at integrated financial management. 
My understanding is that it is complex because of the various 
centers, the NASA centers running independently and not always 
being totally appreciative of the efforts to have their 
financial management systems brought into conformity with the 
entire NASA program.
    My understanding is that the current attempt at financial 
integration is moving forward successfully. Specifically, to 
me, where there would be an opportunity to take steps is to 
make sure that the effort is being monitored closely, to the 
extent that there are any problems identified that are a result 
of intransigence or otherwise unwillingness on the part of any 
particular center to accommodate the integrated financial 
management system, to take appropriate steps to make sure that 
management is aware of that, and that management follows up 
with the recommendations of the IG's office.
    Senator Wyden. We have been joined by my friend, the 
distinguished Senator from Virginia. He and I work in a very 
bipartisan way on all of these issues, and I appreciate all of 
his involvement. I have just a couple of additional questions. 
My inclination, I think, is I will ask these questions quickly, 
and then just turn it over to you for both a statement and any 
questions.
    There are a couple of others on this round, Mr. Cobb. With 
respect to computer security, the former Inspector General was 
recognized as an individual who had a great interest in 
computer fraud and computer security. You have got some very 
good forensic analysts who have been critical in developing 
cases against hackers who have attacked systems at NASA and 
other Government agencies. How are you going to approach 
computer security questions, and in particular make sure that 
the expertise that has been developed at the agency is 
continued?
    Mr. Cobb. Well, the existing programs involving the 
computer and technological crimes and the technological 
services office at the OIG have become an important component 
in the OIG's fight against crime, cyber crime in particular, 
and at this point in time I must say it is premature for me to 
evaluate any given program in the Office of Inspector General, 
but I would not come to the position with any preconceived 
notions on whether there was any action, or whether there was 
any building up of resources that would need to take place in 
connection with any given program, but my impression is that 
this has been an extraordinarily effective mechanism within the 
Office of Inspector General to deal with the criminal issues 
that have been, in terms of hacking and other cyber crime, and 
I would be happy to assure the Committee that I would continue 
to make sure that those resources were applied to preventing 
those types of problems.
    Senator Wyden. One last question for this round. I think 
when you look at the history of the agency and the debate about 
the agency and its priorities, one of the things that you 
always hear, it is a recurring kind of theme, is that any time 
you go after expenditures, and particularly areas where there 
is documented waste and inefficiency, somebody says, ``Well, 
you are going to hurt safety, this is going to be bad for 
safety.'' As I said at Mr. O'Keefe's confirmation hearing, in 
my view cutting fat does not mean cutting corners on safety, 
and I have just got to believe that NASA has got the talent to 
come up with new ways of doing things, new ways of making the 
agency more efficient, that are also safe ways of doing them. 
One of the things that was striking is, you have had a great 
interest over the years in risk management, and innovation.
    How do you approach this question of trying to strike the 
balance where you come up with new ways of approaching issues 
and solving problems while at the same time not compromising 
the safety that all of us care about for the patriots who serve 
our country?
    Mr. Cobb. My perspective on this is--and I guess I am 
inherently cynical, as my family members can attest.
    Senator Wyden. They are smiling.
    Mr. Cobb. I am going to say, ``show me''. There is a 
science to risk management, and there are costs associated with 
risk management, and to the extent that a program pursuant to 
an IG recommendation or a management recommendation, that 
people are claiming that somehow that safety is going to be 
compromised, I am going to demand and expect that people 
explain exactly what they mean by that, and what would the cost 
be to make sure that the change in the program does meet the 
risk tolerances that management establishes in connection with 
NASA programs.
    So I think it might be easy for people to say, ``Well, any 
change in any particular program is going to result in some 
safety issues,'' and presumably that is correct, but there is a 
cost associated, and it would be incumbent on management in 
particular to know what the cost is that is associated with the 
change.
    Senator Wyden. Senator Allen.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman. I am sorry for 
being late. I was meeting on another technology subject, and I 
was listening to the questions you were asking. You have 
already asked all the questions, even the last one I had. I 
could tell you already had the first three, and you even got to 
the last one.
    I want to make a brief opening comment about this position 
and NASA generally and get some of your views on it, Mr. Cobb. 
I was actually reading through your statement here. Folks of 
South Carolina must have been very forgiving if you had someone 
who served in the Maine infantry during the War between the 
States and elected family members in all sorts of positions, 
and so you certainly have bloodlines who have served remarkably 
throughout the history of our country, not just then, but 
subsequent as well.
    In this hearing I think it is important for us not to look 
at the past, but to look at the future, and the future of our 
country will be in large part due to our advancements and 
leadership in the area of technology, and particularly where 
NASA is involved, the first day of aeronautics, much of what 
you would be doing is looking at the efficiency and cutting 
back on waste and so forth, and that is a very important 
principle.
    We need to be looking for scientific excellence, and you 
will get more excellence as you have more money actually being 
utilized for something productive and useful, and new 
developments, new technologies, whether it is civilian or 
military.
    We are all very impressed with NASA. We have had hearings 
previously with Mr. O'Keefe and last year as well on the fine, 
outstanding people who work at NASA. The greatest resource of 
NASA is the people, and we need to make sure that we keep that 
in aeronautics and in space, and keep that fiscal 
responsibility with the taxpayer's dollars.
    Now, as far as aeronautics, I think it is absolutely 
essential, even after September 11, for us to make sure that we 
do keep our lead, but we had a hearing last year when I was 
actually chairman of the Subcommittee, before Mr. Jeffords went 
to the other side. At any rate, it was on the issue of 
aeronautics research, and there was a lot of concern about our 
technological edge in aeronautics being challenged, for 
example, by the Europeans, and the aviation industry, if you 
look at the importance of the aviation industry to our country, 
it is a net exporter. It is one of our best exporting aspects 
for balance of trade, and obviously our preeminence is 
important for good-paying jobs in our country.
    Now, NASA's aerospace technology enterprise and the Langley 
Research Center, they are engaged in developing innovative 
technologies, many of which have been adopted, and they are 
beneficial for the aviation industry, and their research is not 
just revolutionary, it is also evolutionary in the way that 
they look at it, and whether that is for advanced warning of 
wind shear, or designing advanced traffic management systems, 
which I know the chairman and I both share a great concern 
about, and that is exactly one of the things that are needed. I 
am glad Reagan National is finally getting fully operational, 
but there are technologies that can help us with our security, 
and NASA is involved in some of that research, as well as 
developing what are called morphing wing vehicles for future 
aviation use.
    Now, this research is going to lead to greater aviation 
safety. It will reduce accidents and fatalities, obviously, and 
I look forward to working with you as Inspector General to 
ensure that the aeronautics program is run efficiently to 
maximize the return of the taxpayer's investment.
    Now, to the extent you get in, and I know you are answering 
questions, and I saw your comments as far as the Space Station, 
there is a concern that all the cost overruns at the Space 
Station are, of course, eating away, or taking away from other 
very important missions of NASA in the aeronautics and other 
space endeavors in research, and so what you do, making those 
very important decisions and recommendations to us and to the 
administration as to what is worthwhile, what is going to get 
us the most use for our dollars, or where there could be 
improvements would be very closely listened to and I think will 
be very important.
    I would be interested in hearing how you would suggest that 
NASA address the issues regarding human capital, if you could, 
because one thing that also came up out of those hearings last 
year on aeronautics is that the age of the people who are 
working in NASA, many of the engineers and scientists are--they 
are not right next to retirement, but they are generally older, 
and not that far from retirement, and when you lose that sort 
of capacity, when you understand that the human capital is the 
greatest asset of NASA, and that experience and knowledge and 
capability, how are we going to be able to attract more--
obviously, I would think you would need to work with the 
colleges and the universities, also in the private sector, to 
attract people into that research, seeing a worthwhile 
endeavor, or a fulfillment of a life work and also as a career 
for an individual.
    I would hope that you would have some ideas as to how we 
can work to attract the best to be those innovators for the 
future, which is good for our country, good for our quality of 
life, good for our security, and clearly also vital for our 
economy as well.
    So with that, I will conclude, and ask Moose--is that your 
nickname, Moose?
    Mr. Cobb. Yes, sir. Good afternoon, Senator. I do go by 
Moose.
    Senator Allen. Did you already get him on Moose?
    Senator Wyden. Yes.
    Senator Allen. That must be the Maine in you.
    Mr. Cobb. Many of the points that you make relate to 
overall policy in terms of how NASA will be operating in the 
future as far as the human capital issues, and I guess for me, 
or for a person who is in the role of IG, being attentive to 
the interest of the policymakers, and the U.S. Congress in 
particular, and management in terms of what are particular 
problems at NASA and what are the long-term problems are 
appropriate issues for the tools of the OIG to be used in 
evaluation.
    So, for example, in the area of human capital, it is a 
subject of wide attention, Government-wide in terms of the 
crisis of human capital. NASA has certain advantages that it 
brings to the human capital area, being at the forefront of 
science and technology, and it is an honor for any person to be 
associated and affiliated with NASA, but bringing the tools of 
the OIG to focus on, in terms of audits or investigations of 
NASA's needs would be used to identify issues in connection 
with, for example, human capital in the area of aeronautics, 
and other science and technology programs that NASA has. Again, 
to me what is important for policymakers, to be able to make 
the right decisions they need to have sound financial 
management, transparent systems, so that policymakers can look 
at the books and say, ``OK, this makes sense and this does 
not.''
    Similarly, I think that in connection with all of NASA's 
programs, that confidence of the public is shaken when they 
find that there are financial management issues, or 
alternatively that there are issues in terms of the contracting 
process, and obviously when you are talking about aeronautics 
and other major programs at NASA the contracting and 
procurement issues that can undermine the agency would be a 
focus of the OIG.
    Senator Allen. Well, I would say, Mr. Chairman, I have read 
through Mr. Cobb's qualifications, more than just his 
genealogy, and I find this gentleman to be more than qualified, 
in fact highly qualified.
    I think you are going to have probably one of the tougher 
jobs, but also the most important job. You have the 
qualifications, you have the background, you have the learning, 
and the experience, but in your answer in the midst of it, 
while just trying to determine what are your principles, I 
think you most importantly have an understanding of how 
important it is that NASA be run as properly as possible.
    Every estimate is not going to be accurate. That is just 
the nature of scientific research and development matters, but 
I do think that the public's confidence and the credibility of 
NASA is important as we make decisions, and also I think you 
respect the role that the elected people have, those of us in 
the Senate, in making decisions based on information, that I 
think that the information we receive from you will be 
credible. It will not be gilded, it will be straightforward, 
and I look forward to working with you, Mr. Cobb, and thank you 
for your continuing service to your country.
    Mr. Cobb. Thank you, Senator.
    Senator Wyden. I thank my colleague, and he makes a number 
of points that I agree with, and in fact I think the only other 
question I have would really pick up on an area you touched on, 
and that is really the sort of evaluative process.
    I mean, you are going to be there, and you are going to be 
trying to conduct some of these evaluations and assessments in 
areas that do not lend themselves to kind of cookie-cutter 
kinds of approaches, and I would be curious, just by way of how 
you think through these issues, what kind of evaluative 
processes do you think would be appropriate for areas like R&D?
    I mean, that is an area that both of us are strongly 
supportive of, and we are going to support investments in this 
area and have already in many areas of science and technology 
policy, and at the same time we have got to explain to the 
people of Virginia and the people of Oregon who are putting 
their money out, what they are getting for it. Tell me, if you 
would, how you might go about getting your arms around 
evaluating R&D expenditures.
    Mr. Cobb. Well, I can tell you what my approach would be 
without having had the benefit of being in a position where 
that was a responsibility. First, conceptually, my presumption 
is that the policymakers are making the right calls in terms of 
what expenditures, what are the right projects to invest the 
taxpayer's money in, and so my disposition would not be to 
favor one program over another, because the policymakers are 
making the calls.
    My purpose and focus would be on whether or not the 
instruments pursuant to which R&D funds are utilized, that the 
detailed mechanisms that an agency like NASA has, and the 
procedures it has for spending the taxpayer's money are being 
followed, and that the financial management systems that 
account for the use of the taxpayer's money are in place so 
that I or you or the public may look at the books and say, 
``OK, this is how our policy decision has been carried out,'' 
and we can see exactly what it is costing, and we can see 
exactly what we are getting for that money, and so I would use 
the tools.
    Now, in terms of the very capable staff that currently is 
at the Office of Inspector General, I have no question but that 
they would have a number of ideas also in terms of how an issue 
such as R&D, and what is not only the appropriate expenditure, 
but how it is being carried out should be considered, and in 
addition to that, to the extent that there is additional 
resources that I need to draw upon again, there is the 
President's council on integrity and efficiency and IGs at 
other agencies with the same types of problems whose knowledge 
I would be happy to draw upon in trying to get at the bottom of 
a question like that.
    Senator Wyden. The two of us are going to continue the 
bipartisan tradition and support you, and we are going to work 
to get you confirmed, and I think you will speak very well for 
our Government, and your work, as Senator Allen noted, is 
especially important right now, so Godspeed. We wish your 
family well. Everybody can figure out the restaurant you are 
going to go to tonight to celebrate.
    Is there anything you would like to add further, Mr. Cobb?
    Mr. Cobb. No. I would just like to thank you both, and 
assure you that I will give this job my very best in doing what 
is right by the taxpayer.
    Senator Wyden. We look forward to seeing you confirmed.
    The Committee is adjourned.
    [Whereupon, at 3:15 p.m., the Committee adjourned.]


                            A P P E N D I X

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    Mr. Chairman, I want to thank you and Chairman Hollings for calling 
today's hearing. I appreciate your willingness to work with myself and 
others on this Committee to schedule this confirmation hearing in a 
timely manner.
    Mr. Cobb, I welcome you. Your nomination comes at a critical time 
for NASA. Together with Administrator O'Keefe, you will be challenged 
with resolving NASA's many management and technical challenges.
    I would like to emphasize the importance of getting accurate and 
complete information from NASA. In the past, the Young report, and even 
Administrator O'Keefe, have expressed their frustration with getting 
vital financial cost information from NASA. The recent Pricewaterhouse 
Coopers' audit of NASA stated that NASA was unable to provide 
sufficient documentation for amounts capitalized to the International 
Space Station, among other problems. Time and again, I have expressed 
my concerns that key decisionmakers, including Congress, are not 
receiving the necessary information required to make well-informed 
decisions.
    This year, NASA will have to make some critical decisions on the 
future of the International Space Station, its research centers, the 
Space Launch Initiative, and many other program areas. It is my hope 
that these decisions will be based on the best possible information 
available.
    Mr. Cobb, as the Inspector General, if confirmed, your role as the 
on-site ``police'' will keep you busy. It is my expectation that you 
will continue the excellent work that you have been providing to the 
President as Associate Counsel to the President.
    A coherent agenda for the agency is also important. I look forward 
to working with you and Administrator O'Keefe to further define the 
agency's vision and implementing strategy. We must also begin to 
develop a larger plan for research and exploration to ensure that the 
systems that we develop today meet the requirements of tomorrow.
    Again, thank you, Mr. Chairman, for holding this hearing. Also, let 
me thank the nominee for his many years of public service. I commend 
you for your willingness to continue in public service. I look forward 
to quick action on this excellent nominee.
  

                                  <all>

</pre></body></html>
